HHS/OIG, Audit -"Audit of Costs and Reporting of Funds Under the Public Health Preparedness
and Response for Bioterrorism Program by North Carolina Department of Health and Human Services,"(A-04-04-01002)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Costs and Reporting of Funds Under the Public Health Preparedness and Response for Bioterrorism
Program by North Carolina Department of Health and Human Services," (A-04-04-01002)
July 27, 2005
Complete
Text of Report is available in PDF format (1.01 mb). Copies can also be obtained by contacting the
Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether the North Carolina Department of Health and Human Services
(the State):  (1) recorded and reported Program funds awarded, expended, obligated, and unobligated
by focus area in accordance with the CDC cooperative agreement; (2) ensured that Program funds were
used for necessary, reasonable, allocable, and allowable costs in accordance with the terms of the
cooperative agreement and applicable Federal regulations; and (3) supplanted current State or local
funding with Program funds.
The State recorded and reported Program funds awarded, expended, obligated, and unobligated by focus
area in accordance with the CDC cooperative agreement.  Costs incurred by the State for administering
the Program were necessary, reasonable, allocable, and allowable.  However, the two subrecipients
we reviewed claimed reimbursement for $98,929 in unallowable costs that, for the most part, were incurred
for operations with little or no discernible relationship to Program activities, as established in
State agency subagreements and CDC program guidance.  We found no evidence of supplanting of State
or local expenditures with Program funds.
We recommend that the State:  (1) refund $98,929 to the CDC and (2) continue to strengthen subrecipient
monitoring efforts to ensure that Program funds are used only for necessary, reasonable, allocable,
and allowable costs.  Of the $98,929 of subrecipient costs we recommended for financial adjustment,
the State concurred in its comments with only $17,289.  The State also disagreed with our conclusions
that it had not maintained an adequate subrecipient monitoring system and that it had not required
subrecipients to submit financial reports containing sufficient detailed information to allow effective
monitoring.  Despite the States assertions, we continue to believe the entire $98,929 is unallowable
in accordance with Office of Management and Budget (OMB) Circular A-87.